           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       ADMINISTRATIVE COSTS
  CLAIMED BY THE NORTH CAROLINA
     DISABILITY DETERMINATION
              SERVICES

    March 2006   A-04-05-15040




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   March 13, 2006                                                       Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Inspector General

Subject: Administrative Costs Claimed by the North Carolina Disability Determination Services
        (A-04-05-15040)


        OBJECTIVE
        Our objectives were to evaluate the North Carolina Disability Determination Services’
        (NC-DDS) internal controls over the accounting and reporting of administrative costs
        and determine whether costs claimed were allowable and properly allocated and funds
        were properly drawn.

        BACKGROUND
        Disability determinations under the Social Security Administration’s (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by Disability
        Determination Services (DDS) in each State or other responsible jurisdiction, according
        to Federal regulations. 1 Each DDS is responsible for determining claimants’ disabilities
        and ensuring adequate evidence is available to support its determinations. To make
        proper disability determinations, each State agency is authorized to purchase
        consultative examinations (CE) and medical evidence of record from the claimants’
        physicians or other treating sources. SSA pays the State agency 100 percent of
        allowable expenditures using Form SSA-4513, State Agency Report of Obligations for
        SSA Disability Programs. The DDS withdraws Federal funds through the Department
        of the Treasury’s (Treasury) Automated Standard Application for Payments (ASAP)
        system to pay for program expenditures. (For additional background, scope and
        methodology, see Appendix B.)




        1
            20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Paul D. Barnes


RESULTS OF REVIEW
NC-DDS did not always have adequate controls in place to ensure it properly
accounted for and reported administrative costs it billed to SSA. Additionally, NC-DDS
did not always comply with guiding regulations and policies regarding allowable claims
and draws. For example, during our audit period, NC-DDS claimed $1,845,432 in
office space costs above the amount allowed by SSA policy. Also, NC-DDS
transferred significant funds between Treasury accounts that were established for
costs expended during specific fiscal years (FY). These fund transfers contributed to a
$410,693 discrepancy between cash draws and disbursements reported on Forms
SSA-4513. NC-DDS also had $689,211 remaining in Treasury fund balances for
FYs 2001 through 2003 that should have been returned to SSA. Finally, during our
audit period, NC-DDS claimed $18,705 in excess CE fees and $2,338 in excess payroll
charges and did not inventory 719 SSA-provided computers.

We also noted that NC-DDS noncompetitively awarded contracts totaling about
$1.1 million for work related to its move to new office space. Although these costs may
have been reasonable, we were unable to determine the appropriateness of these
charges because the DDS did not seek competition during the bid process. This
contract award may be contrary to State law and is being reviewed by North Carolina
State Auditors.

EXCESSIVE OFFICE SPACE

During our audit period, NC-DDS leased more office space than allowed by SSA
policy. SSA policy allows reimbursement to DDSs for a maximum of 150 square feet
per full-time equivalent position (FTE), 2 yet the NC-DDS leased approximately
235 square feet per FTE. NC-DDS passed on to SSA an additional $1,845,432 in rent
for the 3-year audit period.

In August 1999, NC-DDS began relocating its operations to a privately owned building
in Raleigh, North Carolina. NC-DDS entered into a 7-year lease agreement to occupy
150,000 square feet at an average annual cost of $1,704,000. Before its relocation,
NC-DDS occupied 104,406 square feet of office space at an annual cost of $913,729.

In planning its relocation, NC-DDS developed an estimate of future space needs based
on 639 FTEs. Given this estimate and SSA’s maximum allowable square footage of
150 square feet per FTE, the NC-DDS should have leased about 95,850 square feet of
space. Instead, NC-DDS leased 150,000 square feet, which is

•     54,150 square feet more than allowed by policy,
•     235 square feet per FTE, and
•     44 percent more than it previously occupied.


2
    An FTE represents one full-time employee.
Page 3 – Paul D. Barnes


NC-DDS did not experience staffing increases that would justify the additional space.
From the lease’s inception in August 1999 through September 2004, NC-DDS’ FTEs
remained relatively constant (see Table 1).

              Table 1: Number of FTE’s for FYs 1999 Through 2004
              Fiscal Year 1999 2000 2001 2002 2003 2004
                 FTE       642    642    642    642    639   659

SSA approved a relocation plan that included 142,625 square feet of space. The State
ultimately acquired 150,000 square feet of office space, 7,375 square feet more than
SSA approved. By approving the relocation plan, SSA did not follow its own policy,
which would have limited NC-DDS office space to about 96,000 square feet. Based on
the average lease cost of $11.36 per square foot, NC-DDS office space costs charged
to SSA would have been $615,144 less per year, and $1,845,432 less during our
3-year audit period.

While at NC-DDS, we observed multiple conference rooms, expansive storage areas,
and two unoccupied case processing units. The two unoccupied case processing units
comprised approximately 6,000 square feet. At an average of $11.36 per square foot,
we estimate NC-DDS paid $204,480 for this unoccupied space during our audit period.
Even if NC-DDS had grown as it anticipated, we believe this unoccupied space was
unnecessarily leased because the lessor agreed to provide additional office space for
future DDS expansion on an as needed basis.

The current NC-DDS lease expires in July 2006. According to the NC-DDS
Administrator, the DDS has no plans to relocate at the end of the lease and will most
likely renew its present lease at that time. If the lease is renewed with the same
square footage, SSA will continue to reimburse the NC-DDS for office space costs in
excess of SSA policy.

NONCOMPETITIVE CONTRACT AWARDS

NC-DDS noncompetitively awarded about $1.1 million in contracts to one contractor.
The DDS awarded these contracts in 1999 to prepare its new office space for
occupancy. The contractor, a company affiliated with the lessor, was paid $856,000 for
data cabling and electrical wiring and about $214,000 for other site preparation.

According to North Carolina State law, it appears construction contracts exceeding
$300,000 are to be competitively bid to the public. NC-DDS claimed that, in
accordance with a North Carolina Department of Health and Human Services’
(NC-DHHS) policy, renovations to a leased property may be done by the lessor.
However, we believe the departmental policy should not supersede State law. Further,
because the State had not signed the lease when the contract was awarded, the
departmental policy did not appear to be applicable.
Page 4 – Paul D. Barnes


Because the work was not competitively bid, we could not determine whether the cost
of the work was reasonable. Further, neither the agreement nor the contractor’s
invoices provided detail on the amount, type of cable or hardware installed. As a
result, we had no basis to assess the reasonableness of these charges.

Telephone System Inappropriately Funded
NC-DDS charged SSA $650,427 to install a telephone system at its new building.
Most of the telephone system was installed in December 1999. However, NC-DDS
inappropriately used funds authorized for a previous FY to pay the FY 2000 telephone
system installation expense. According to Federal regulations, Federal funds
specifically authorized for a FY are to reimburse expenditures that occur in that
period. 3 Yet, we found no evidence that SSA authorized NC-DDS to expend prior year
Federal funds for this expenditure. SSA authorized $470,000 in FY 1997 funds to
upgrade the telephone system at its old building. Also, NC-DDS submitted a FY 1998
budget to SSA that indicated an additional $170,000 was needed to complete the
telephone system upgrade at the old location. We believe NC-DDS should not have
used prior year Federal funds to pay for the telephone system at its new location.
Rather, it should have returned funds not used for FY 1997, 1998, and 1999
expenditures and requested additional funds in FY 2000 for the new telephone system
expense. Table 2 details the Federal funds NC-DDS used to pay for its new telephone
system.

                Table 2: Federal FY Funds Used for the Telephone System

                              Fiscal Year       Funds Used

                                 1997              $470,000

                                 1998               170,988

                                 1999                 9,439

                                        Total      $650,427

Overlapping Rent Payments
NC-DDS paid $518,000 in rent from August 1 to November 30, 1999 to lease a new
building. NC-DDS also extended its lease and paid rent on its existing building from
August 1 through December 31, 1999. Despite paying rent at both locations, NC-DDS
did not move its staff into the new building until December 1999.

An official from the State Property Office explained the new building may not have
been ready for the August 1, 1999 occupancy date because of additional SSA data
wiring requirements. However, it is our understanding SSA provided the State with

3
    31 U.S.C. § 1502.
Page 5 – Paul D. Barnes


detailed electrical and data wiring specifications early in the planning process and
before the State advertised its request for proposals. We could not determine the
specific SSA wiring requirements that may have caused delays in the build-out.

SSA approved the overlapping rent payments through December 1999—as long as the
new building was ready for occupancy. In August 1999, an official from the State
Property office determined that “85 percent of the facility was substantially complete.”
However, at that time, the required data cabling and wiring was not complete and the
telephone system had not been installed. Further, the State Property Office instructed
NC-DDS that it should not occupy the building until it obtained the proper Certificate of
Occupancy. Unfortunately, NC-DDS did not obtain a Certificate of Occupancy until we
initiated our audit—over 5 years later. We believe NC-DDS should not have paid rent
on the new building until December 1, 1999, when the building was substantially
complete.

CASH MANAGEMENT
Funds to recover NC-DDS expenditures are drawn from Treasury’s ASAP system.
Cash draws made from ASAP are to reimburse NC-DDS for expenditures incurred
during the same period as the account’s FY reporting period. 4 For each FY, NC-DDS
is assigned a separate account in ASAP.

For each of the three ASAP accounts in our audit period, total cash draws did not equal
total disbursements reported by the NC-DDS on the corresponding Forms SSA-4513.
Additionally, each of the three accounts had available balances that exceeded
unliquidated obligations reported on the Forms SSA-4513. Table 3 details the ASAP
variances and the remaining balances for each of the three FYs in our audit period.

                         Table 3 : ASAP Variances and Balances
                                                      ASAP
                          Funds                       Draws        Unliquidated
            ASAP        Disbursed        SSA         Exceed        Obligations     ASAP
            Cash           Per        Authorized      Funds         Per Forms     Available
    FY      Draws       SSA- 4513      Funding      Disbursed       SSA-4513      Balance
2001      $42,065,267   $40,729,061   $40,729,061    $1,336,206               0        $9,441
2002      45,606,938     47,086,396    47,086,396    (1,479,458)              0        12,810
2003      46,322,547     45,768,602    46,489,507       553,945         $59,645      666,960
                                           Totals      $410,693         $59,645     $689,211

During our 3-year audit period, it appeared NC-DDS’ cash draws exceeded reported
disbursements by $410,693. However, NC-DDS transferred funds between ASAP
accounts. As a result, the FY ASAP cash disbursements did not equal the
expenditures reported on the respective years’ Forms SSA-4513, and the FY ASAP
available balances did not agree with the reported unliquidated obligations. Because
4
    Id.
Page 6 – Paul D. Barnes


the ASAP accounts contained transfers from ASAP accounts outside of our audit
period, we could not conclude that the NC-DDS’ draws exceeded its reported
disbursements. To do so would require a reconstruction of cash draws from prior and
future years to determine whether cash draws were appropriate. We determined that
ASAP funds were transferred between ASAP accounts during FYs 1999 through 2004;
and fund transfers likely occurred before FY 1999—according to an NC-DDS official.
Because this practice occurred over an extended period of time, we believe NC-DDS
should reconcile ASAP cash disbursements to reported expenditures (by FY) to ensure
the ASAP disbursements were appropriate. The funds transferred between Federal FY
ASAP accounts are detailed in Table 4.

            Table 4: Funds Transferred Between Federal FY ASAP Accounts
         Transfer
           Date            FY 1999    FY 2000     FY 2001       FY 2002       FY 2003   FY 2004
     March 7, 2001            --      $194,000    ($194,082)       --            --        --
     January 28, 2002      $573,828   1,410,517    (258,762)   ($1,740,674)      --        --
     June 7, 2002             --         --       1,568,004    (1,568,004)       --        --
     May 23, 2003             --         --       (111,184)        111,184       --        --
     March 30, 2004           --     (568,159)      (117,620)      162,911 $300,000     $222,868
     LEGEND:
     Numbers in (RED) indicate a transfer of funds TO another FY ASAP account.
     Numbers in BLACK indicate a transfer of funds FROM another FY ASAP account.

An official with the NC-DHHS Controller’s Office explained that, in the past, NC-DDS
had overdrawn ASAP funds in some FYs and under-drawn in others. The official
further explained funds are transferred between ASAP accounts to reconcile each
funding year, but the net effect of the transfers on the overall funding is zero. The
official also added that current cash management procedures allow the NC-DDS to
more timely monitor ASAP draws.

The Atlanta Regional Office does not know when a DDS transfers cash between ASAP
accounts because it does not require that DDSs obtain prior approval to transfer funds.
Furthermore, the Regional Office does not have access to the ASAP system, which
would allow for better monitoring of DDS cash management activities. Improved
oversight of DDS cash management activities would reduce the risk of
mismanagement of Federal funds.

The transfer of funds between accounts allows for an inappropriate use of one FY’s
appropriation to pay the expenses of another FY. Federal statute states, “The balance
of an appropriation or fund limited for obligation to a definite period is available only for
payment of expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability and obligated consistent with
section 1501 of this title.” 5 As of May 31, 2005, the ASAP accounts for FYs 2001 and
2002 still had available balances of $9,441 and $12,810, respectively. However,

5
    31 U.S.C. § 1502(a).
Page 7 – Paul D. Barnes


NC-DDS submitted its final Form SSA-4513 for these years and reported that no
unliquidated obligations remained. Additionally, the ASAP account for FY 2003 had an
available balance of $666,960, but NC-DDS’ most recent Form SSA-4513 reports that
only $59,645 in unliquidated obligations remain.

An official with the NC-DHHS’ Controller’s Office stated the $22,251 remaining in the
FY 2001 and 2002 ASAP accounts will not be needed and should be returned.
Regarding the $666,960 FY 2003 ASAP account balance, the NC-DHHS official
acknowledged that the available ASAP balance exceeds NC-DDS’ FY 2003
unliquidated obligations. The official further explained that NC-DDS is evaluating the
ASAP balance; however, it is very probable that NC-DDS will not use the $666,960 and
it will need to be returned.

CONSULTATIVE EXAMINATION COSTS
The DDS obtains medical information necessary to determine whether an applicant
meets the eligibility criteria for Disability Insurance or Supplemental Security Income
benefit payments. When existing medical evidence is insufficient, not available, or
cannot be obtained, the DDS is authorized to purchase a CE. The DDS establishes
fee schedules for the CE procedures it purchases. Each procedure in the fee schedule
is identified by a Current Procedural Terminology (CPT) code. 6 NC-DDS developed a
standardized fee schedule that generally adopted the Medicare fee schedule.

Generally, the DDS paid CE fees in accordance with its established fee schedule.
However, during our audit period, NC-DDS paid $18,705 in CE fees in excess of its fee
schedule. SSA’s Program Operations Manual System (POMS) states:

          The State will determine the rates of payment for medical or other services that
          are necessary to make a disability determination. The DDS will consider its fee
          schedule as a maximum payment schedule. Authorized payments will represent
          the lower of either:

             •   the providers usual and customary charge, or
             •   the maximum allowable charge under the fee schedule.
                                                                      7




6
 CPT codes, defined by the American Medical Association, provide a uniform language that accurately
describes medical, surgical, and diagnostic procedures in the fee schedule.
7
    POMS, DI 39545.210 1.a. and b.
Page 8 – Paul D. Barnes


The NC-DHHS Controller’s office added employment tax 8 (7.65 percent) to CE fees
paid to medical providers that are employed by the State but perform services outside
their State employment. The State deemed these employees to have dual
employment status. Payments to CE providers with dual employment status pass
through the employing State agency. Therefore, NC-DHHS considered it appropriate
to add the tax, not realizing the mark up caused the fees to exceed the NC-DDS CE
fee schedule. NC-DDS did not question this practice, and these excess CE costs were
charged to SSA.

Officials from both NC-DDS and NC-DHHS’ Controller’s Office agreed the addition of
employment taxes caused NC-DDS to exceed its CE fee schedule. As a result of our
audit, NC-DDS and NC-DHHS have revised their procedures to ensure CE payments
to dual employment CE providers do not exceed the NC-DDS fee schedule.

PAYROLL COSTS
In FY 2003, NC-DDS claimed reimbursement for $2,338 in excess payroll costs. In
January 2003, a DDS employee transferred from a position that was fully chargeable to
SSA to one that was only partially chargeable because the new position was not
100 percent dedicated to SSA-related work. In January 2003, a manual payroll action
was made to properly allocate the employee’s salary expense for that month.
However, because of a payroll processing error, a portion of the employee’s wages
was incorrectly charged to SSA from February through June 2003.

In July 2003, the NC-DHHS Controller’s Office identified the error and took corrective
action to ensure it did not charge the employee’s future payroll expense to SSA.
However, the Controller’s Office did not retroactively adjust the payroll expense and, as
a result, its unallowable wages and benefits of $2,338 were charged to SSA. We
discussed this matter with officials from NC-DDS and the NC-DHHS Controller’s Office.
The officials agreed the payroll expense was incorrectly charged to SSA.

INVENTORY CONTROLS
NC-DDS’ inventory list was incomplete because it did not reflect 719 computers SSA
purchased for the DDS. According to SSA instructions, “. . . (t)he State is responsible
for maintenance and inventory of all equipment acquired -- whether purchased through
SSA or the State.” 9 The State did not include the computers on the NC-DDS inventory
because the equipment was known to be SSA’s property. Failure to maintain a current
and accurate inventory list reduces the DDS’ ability to properly safeguard its assets.



8
 Employment tax is also known as Social Security Tax, defined under the Federal Insurance
Contribution Act as a Federal tax levied equally on employers and employees, used to pay for Social
Security programs. See 26 U.S.C. § 3101 et seq.
9
    POMS, DI 39530.020(A)(1).
Page 9 – Paul D. Barnes


CONCLUSION AND RECOMMENDATIONS
NC-DDS claimed unallowable office space costs of $1,845,432 for October 1, 2001
through September 31, 2003. Also, NC-DDS transferred significant funds between
ASAP accounts. We believe the fund transfers contributed to variances between
ASAP cash draws and disbursements reported on the Form SSA-4513. NC-DDS
claimed $18,705 in excess CE fees and $2,338 in unallowable payroll expenses.
Finally, the DDS did not inventory 719 SSA-provided computers.

We recommend that SSA:

1. Determine the appropriateness of the $1,845,432 in office space costs above the
   amount allowed by SSA policy and seek reimbursement for any inappropriate
   charges.

2. Instruct NC-DDS to return the $518,000 resulting from overlapping rent payments.

3. Determine whether the nearly $1.1 million NC-DDS paid for electrical wiring, data
   cabling and other build-out services was reasonable and seek reimbursement for
   any charges determined to be inappropriate.

4. Determine whether the $650,427 NC-DDS paid for its new telephone system was
   appropriate and seek reimbursement for any charges determined to be
   inappropriate.

5. Instruct NC-DDS to return the $689,211 that remains unused in its FYs 2001
   through 2003 ASAP accounts.

6. Require that DDSs in the Atlanta Region obtain approval to transfer funds
   between ASAP accounts.

7. Consider whether a reconciliation of ASAP cash draws to expenditures reported
   on the Form SSA-4513 is needed to assure ASAP cash disbursements were
   appropriate.

8. Instruct NC-DDS to refund $18,705 in unallowable CE fees resulting from the
   addition of employment taxes.

9. Instruct NC-DDS to refund $2,338 to SSA for unallowable payroll expenses.

10. Instruct NC-DDS to inventory all SSA-provided computers.

11. Increase its oversight of the NC-DDS cash management activities and ensure that
    major capital procurements comply with Federal, State and SSA policies,
    procedures and regulations.
Page 10 – Paul D. Barnes


AGENCY COMMENTS
SSA generally agreed with our recommendations except for Recommendation 2. SSA
acknowledged that a Certificate of Occupancy was not obtained from the City of
Raleigh before the DDS occupied the facility in December 1999. However, SSA stated
that rent was payable beginning in August 1999 because the State determined the
building was 85 percent complete at that time. Also, SSA stated that it had approved
overlapping rent payments; therefore, it will not require that the NC-DDS return the rent
paid before its December 1999 occupancy of the facility. See Appendix C for the full
text of SSA’s comments.

NC-DHHS COMMENTS
Overall, NC-DHHS did not agree with our recommendations. For example, the
NC-DHHS disagreed with our recommendation related to costs associated with excess
office space. It stated that SSA’s policy regarding acquisition of office space was only
a suggested guideline. Additionally, NC-DHHS disagreed with our finding that the
acquisition of $1.1 million in electrical and wiring/cabling may not have been
appropriate. NC-DHHS acknowledged that the invoices for this work lacked sufficient
detail describing the amount and type of work performed. However, NC-DHHS stated
that according to DHHS policy, it was not required to competitively bid the acquisition
of these build-out services because the improvements were made to a leased property.
See Appendix D for the full text of NC-DHHS’ comments.

OIG RESPONSE
As recommended, the Atlanta Region evaluated the appropriateness of the NC-DDS
charges we outlined in the report. Regarding Recommendation 2, SSA responded that
it relied on the State property officer’s determination that the building was substantially
complete when the overlapping rent payments began. Accordingly, SSA deemed the
rent payments appropriate. However, in our opinion, without evidence of the required
inspection and a corresponding Certificate of Occupancy, we are concerned the
Region did not have complete information regarding the readiness of the building when
it approved the overlapping rent payments.




                                              S
                                              Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – North Carolina Department of Health and Human Services’ Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act        Social Security Act
ASAP       Automated Standard Application for Payments
CE         Consultative Examination
C.F.R.     Code of Federal Regulations
CPT        Current Procedural Terminology
DI         Disability Insurance
DDS        Disability Determination Services
FTE        Full-time Equivalent
FY         Fiscal Year
POMS       Program Operations Manual System
NC-DDS     North Carolina Disability Determination Services
NC-DHHS    North Carolina Department of Health and Human Services
SSA        Social Security Administration
SSI        Supplemental Security Income
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                             Appendix B

Background, Scope and Methodology
BACKGROUND
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), 1 provides benefits to wage earners and their families in the event the wage
earner becomes disabled. 2 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled. 3

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by Disability
Determination Services (DDS) in each State, Puerto Rico and the District of Columbia,
in accordance with Federal regulations. 4 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
obtained to support its determinations. 5 Each DDS is also authorized by SSA to
purchase consultative medical examinations, such as x-rays and laboratory tests, to
supplement evidence obtained from the claimants’ physicians or other treating
sources. 6

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
annual funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn must comply with Federal
regulations and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 7 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments. At the end of each fiscal quarter, each State agency submits to SSA a

1
    Social Security Amendments of 1954, Pub. L. No. 83-761, 68 Stat. 1089.
2
    Id.
3
    Social Security Amendments of 1972, Pub. L. No. 92-603, 86 Stat. 1465.
4
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
5
    Id.
6
    Program Operations Manual System, DI 39545.001(B)(4).
7
 Cash Management Improvement Act of 1990, Pub. L. No. 101-453, 104 Stat. 1058 (amending 31 U.S.C.
§ § 6501 and 6503).


                                                   B-1
State Agency Report of Obligations for SSA Disability Programs (Form SSA-4513) to
account for program disbursements, obligations and unliquidated obligations.

The North Carolina Disability Determination Services (NC-DDS) is a component of the
North Carolina Division of Vocational Rehabilitation in the North Carolina Department of
Health and Human Services (NC-DHHS). The NC-DHHS Controller’s Office accounts
for NC-DDS disbursements, completes and submits the Form SSA-4513, and prepares
requests to transfer cash from Treasury to the State Treasurer. The State’s indirect
costs for the DDS are determined based on a cost allocation plan negotiated and
approved by the Department of Health and Human Services.

SCOPE
We reviewed the administrative costs submitted by the State for NC-DDS and reported
to SSA on Form SSA-4513 for the period October 1, 2000 through September 30, 2003
(Fiscal Years 2001 through 2003). For the audit period, we tested the reliability of the
State’s computerized data by comparing disbursements—by category and in total—with
amounts reported on Form SSA-4513. We then obtained sufficient evidence to
evaluate administrative costs in terms of their allowability under the Office of
Management and Budget’s Circular A-87 and appropriateness, as defined by SSA’s
Program Operations Manual System (POMS).

We also

•   reviewed applicable Federal regulations; pertinent parts of POMS, DI 39501; DDS
    Fiscal and Administrative Management; and other instructions pertaining to
    administrative costs incurred by the DDS and requests for Federal funds covered by
    the Cash Management Improvement Act agreement;

•   evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities;

•   interviewed NC-DDS, NC-DHHS, and SSA personnel;

•   examined the administrative expenditures (personnel, medical services, and all other
    non-personnel costs) claimed by the DDS for the period October 1, 2000 through
    September 30, 2003;

•   recomputed indirect costs for Fiscal Years (FY) 2001 through 2003 based on the
    approved indirect cost allocation plan;

•   compared the amount of SSA funds requested and received for program operations
    to the allowable expenditures reported on Form SSA-4513;

•   reviewed work performed by the North Carolina State auditors as part of the North
    Carolina Single Audit for FY 2002; and


                                           B-2
•   conducted a physical inventory of equipment items and selected computer hardware
    items SSA provided to the NC-DDS.

We conducted our audit from October 2004 through August 2005 at the NC-DDS and
the NC-DHHS in Raleigh, North Carolina, and at SSA’s Regional Office in Atlanta,
Georgia. We conducted our audit in accordance with generally accepted government
auditing standards.

METHODOLOGY
Our sampling methodology encompassed three general areas of costs, as reported on
Form SSA-4513: (1) personnel, (2) medical, and (3) all other non-personnel costs. We
obtained computerized data from the NC-DDS for FYs 2001 through 2003 for use in
statistical sampling. After selecting and reviewing randomly selected samples, we did
not identify errors we felt warranted audit projection.
Personnel Costs
We reviewed 50 personnel transactions from 1 pay period in FY 2003. The sample
included five employees the NC-DDS hired as medical consultants. We tested North
Carolina Vocational Rehabilitation Department payroll records to ensure it correctly paid
employees and adequately documented these payments.
Medical Costs
We sampled 150 medical cost items (50 items from each FY) using a stratified random
sample. We distributed the sample items between medical evidence of record and
consultative examinations based on the proportional distribution of the total medical
costs for each year.
All Other Non-personnel Costs
We selected a stratified random sample of 150 items (50 items from each FY) from all
other non-personnel costs. Before selecting the sample items, we sorted the
transactions into the following categories: (1) Occupancy, (2) Contracted Costs,
(3) Electronic Data Processing Maintenance, 4) New Electronic Data Processing
Equipment (5) Equipment Purchases, (6) Equipment Rental, (7) Communication,
(8) Applicant Travel, (9) DDS Travel, (10) Supplies, and (11) Miscellaneous. We then
distributed the 50 sample items for each year between categories based on the
proportional distribution of the costs.




                                           B-3
Consultative Exam Costs
We judgmentally selected and tested 100 percent of the fees paid for 21 Current
Procedural Terminology (CPT) codes related to the purchase of consultative
examinations. These 21 CPT codes represented about 90 percent of the DDS’ FY
2001, 2002, and 2003 consultative examination expenditures. In FYs 2001 through
2003, the DDS’ consultative exam expenditures totaled $31,059,541, of which
$28,055,236 (90 percent) was charged to these 21 CPT codes.




                                        B-4
                  Appendix C

Agency Comments
                            SOCIAL SECURITY
                                                        Refer To: K. Killam 2-5727


MEMORANDUM

Date:      February 3, 2006

To:        Inspector General

From:      Regional Commissioner
           Atlanta

Subject: Administrative Costs Claimed by the North Carolina Disability
         Determination Services (NC DDS) – A 04-05-1540

Thank you for the opportunity to comment on the validity of the facts presented in your
draft audit report on the NC DDS’ internal controls. We believe that the OIG Audit,
regarding the accounting and reporting of administrative costs and whether costs
claimed were allowable and properly allocated and funds properly drawn, was detailed
and thorough.

Our response to the eleven recommendations is as follows:

1. Recommendation: Determine the appropriateness of the $1,845,432 in office
   space costs above the amount allowed by Social Security Administration
   (SSA) policy and seek reimbursement for any inappropriate charges.

      The OIG audit states that the NC DDS leased more space than allowed by SSA
      Policy. SSA’s Program Operations Manual System (POMS) reference sited by OIG
      provides guidelines as to the amount of space to be allocated to each authorized
      employee. The NC DDS’s request to expend funds to relocate and to secure
      approximately 142,625 square feet of office space was approved in August 1998.
      The State subsequently advertised for 142,624 square feet of space. In August
      1999, the NC DDS began moving into their new location, a privately owned building
      with 150,000 square feet. The approval for 142,625 square feet of space was based
      in large part upon anticipated increases in staffing and workload that has not
      materialized due to budgetary constraints. A cost/benefit analysis of relocating the
      NC DDS to a different office building that is more in line with space allocation
      guidelines is underway. The Regional Office (RO) will closely monitor the review and
      analysis and proceed accordingly. Preliminary results indicate that the cost of
      relocating the NC DDS to a different facility of reduced size will result in increased
      expenditures far in excess of what is currently being paid. Additionally, relocation


                                             C-1
   would create a significant disruption to effective case management and customer
   service. Because the RO approved the actions of the NC DDS when they occurred,
   we have determined that the NC DDS acted in good faith at the time the contract
   was let and we will not seek reimbursement for any charges related to this finding.
   We will, however, continue to seek an optimum resolution to the space issue.

2. Recommendation: Determine whether the nearly $1.1 million NC DDS paid for
   electrical wiring, data cabling and other build-out services was reasonable and
   seek reimbursement for any charges determined to be inappropriate.

   We have reviewed the history of the contracting process for the renovation project
   done by the NC DDS. We concur with the auditor that the billing/invoicing process
   for this work lacked specificity. As a result of this finding, the NC DDS has re-written
   its purchasing policy and has instructed its staff that this revised policy must be
   followed. This change should ensure that sufficient detail is available regarding any
   future procurement. However, we find that all parties involved in the renovation
   project, including the RO, the State Property and Construction Division (SORG), the
   electrical contractor and MATCO (the building owner), concurred in the renovation
   decisions. After reviewing the available information regarding this finding, we
   believe the cost paid for the electrical wiring, data cabling and other services, was
   reasonable and will not require reimbursement of these costs. No further action
   connected to this finding is necessary.

3. Recommendation: Determine whether the $650,427 NC DDS paid for its new
   telephone system was appropriate and seek reimbursement for any charges
   determined to be inappropriate.

   We have reviewed the history of the telephone system installation in the NC DDS.
   We concur with the auditor that inappropriate procedures were used to expend funds
   beyond the authorized fiscal year in which funds were appropriated. The NC DDS
   acknowledges that the audit findings are technically correct and that internal policy
   and procedures have been revised and implemented to prevent a repetition. We will
   be working with the NC DDS to review the regulations, policies and procedures
   concerning the proper use and accountability of fiscal year appropriations. Since the
   actual purpose for which the funds were spent was the original basis for
   authorization of the funds and the use of funds was appropriate, we are not seeking
   reimbursement of the $650,427. No further action connected to this finding is
   necessary.

4. Recommendation: Instruct the North Carolina Disability Determination
   Services (NC DDS) to return the $518,000 resulting from overlapping rent
   payments.

   The NC DDS paid $518,000 in rent from August 1, 1999 to November 1999 to lease
   a new building. At the same time, the NC DDS also extended the lease and paid
   rent on its existing building from August 1, 1999 through December 31, 1999. The
   State Property Office issued a letter dated


                                           C-2
  August 9, 1999, that stated 85% of the property to be leased was available for
  occupancy by the NC DDS. The City of Raleigh, the inspections authority for this
  project, should have issued a certificate for partial occupancy for the part of the
  building that could be occupied and should have followed up with a full certificate of
  occupancy when the entire building was ready for occupancy. Although the City did
  not issue the full certificate of occupancy until August 2005, there was no indication
  by the city as to the actual date of the original occupancy inspection. Once the
  facility was determined to be 85% substantially complete and available for the NC
  DDS to begin installation of its equipment, rent payments were properly due and
  payable. The overlapping payments for the two locations were approved by RO and
  were justified. Therefore, we will not seek a return of the $518,000 in overlapping
  rent payments. No further action connected to this finding is necessary.

5. Recommendation: SSA should instruct the NC DDS to return the $689,211 that
   remains unused in its FYs 2001 through 2003 Automated Standard Application
   for Payments (ASAP) accounts.

  FYs 2001 and 2002 have been closed and will have no further expenditures or
  draws. The expenditures and draws have been reconciled for both of these years.
  The balance remaining in the ASAP accounts for FY 2001 is due to refunds of
  expenditures, mainly sale of surplus property and refund of dual employment
  expenses. The balance remaining in the ASAP accounts for FY 2002 is due to
  refunds of expenditures from the sale of surplus property. The RO requested that
  the NC DDS submit amended SSA-4513 (State Agency Report of Obligations for
  SSA Disability Programs) reports for these two years that reflect a reduction in
  expenditures. This SSA-4513 has been received. No further action connected to
  this finding is necessary.

  The balance remaining in the ASAP for FY 2003 that was identified by the OIG
  auditor has been adjusted in accordance with SSA guidelines. FY 2003 is now
  closed and will have no further expenditures or draws. A final
  SSA-4513 report for FY 2003 has been received that reflects a reduction in the
  expenditures. No further action connected to this finding is necessary.

6. Recommendation: SSA should require that DDSs in the Atlanta Region obtain
   approval to transfer funds between ASAP accounts.

  DDSs are prohibited from transferring funds between ASAP accounts because this
  would mean transferring funds between fiscal years. However, in the event that
  such a transaction should occur within a DDS, we will most definitely require that
  approval be obtained from SSA. No further action connected to this finding is
  necessary.

7. Recommendation: SSA should consider whether a reconciliation of ASAP
   cash draws to expenditures reported on the Form SSA-4513 is needed to
   assure ASAP cash disbursement were appropriate.



                                          C-3
   We concur with this recommendation. The RO staff does not currently have access
   to DDS ASAP accounts. The RO budget staff has already begun discussions with
   the financial staff in Central Office (who does have access) to work towards gaining
   access to ASAP. Once such access is obtained, the RO budget staff will be in a
   position to monitor DDS ASAP accounts on a quarterly basis to reconcile ASAP
   cash draws to expenditures reported on the Form SSA-4513. Action will be on
   going.

8. Recommendation: SSA should increase its oversight of the NC DDS cash
   management activities and ensure that major capital procurements comply
   with Federal, State and SSA policies, procedures and regulations.

   We concur with this recommendation. The DHHS Controller’s Office has already
   strengthened its cash management controls. The office has more access to the data
   reported on the ASAP system than during the years covered by this audit. The
   draws are timelier between the Federal Fiscal Years. An additional position has
   added another layer to these controls. One responsibility of this position is to
   determine that draws are properly reported by their Federal Funds section, which
   completes these draws and that they are in agreement with the fund balances by
   year at all times. Additional Excel spreadsheets have been created since 2004 that
   also assist in this process. The RO staff will continue to work closely with the NC
   DDS to ensure that all major capital procurements comply with all appropriate
   procedures and regulations. Action will be on-going.

9. Recommendation: SSA should instruct NC DDS to refund $18,705 in
   unallowable CE fees resulting from the addition of employment taxes.

   We concur with this recommendation and note that, due to the audit review, the NC
   DDS has already revised it’s procedures to ensure that CE payments to “dual
   employment” CE providers do not exceed the NC DDS fee schedule. The NC DDS
   has asked that the overpayment caused by administrative oversight be waived. We
   are currently considering this request.

10. Recommendation: SSA should instruct the NC DDS to refund $2,338 for
    unallowable payroll expenses.

   The RO agrees with this recommendation and action has been taken to resolve it.
   The State DHHS Controller’s Office strengthened its internal control procedures to
   prevent recurrence. Adjusting entries have been posted with an effective date of
   May 31, 2005 to reclassify the $2,338 payroll expense incorrectly charged to SSA.
   This adjustment was included in the FY 2005 expenditures on the SSA-4513 report
   for the quarter ending
   June 30, 2005. No further action connected to this finding is necessary.

11. Recommendation: SSA should instruct the NC DDS to inventory all SSA
    provided computers.



                                          C-4
   We agree that all SSA-provided computers should be inventoried. However, an
   instruction to the NC DDS to inventory such computers is not necessary. The NC
   DDS does maintain an inventory listing of SSA-purchased computers and the
   Information Technology Manager maintains the inventory. Throughout the year, as
   items are purchased, the NC DDS submits documentation to the DHHS Controller’s
   Office to update the Fixed Asset System (FAS). A physical inventory is conducted
   annually and FAS reports are reconciled to the actual inventory counts for each
   agency. However, during the time of the audit, the NC DDS was not providing a
   copy of the SSA-funded inventory listing to the DHHS Controller’s Office to maintain
   in their files. The DHHS Controller’s Office has revised its procedures to require the
   NC DDS to submit a copy of its SSA inventory along with the FAS reports when the
   annual inventory is completed. No further action connected to this finding is
   necessary.

Please contact me if I can be of further assistance. Staff questions should be referred
to Karen Killam at (404) 562-5727 or Sarah Henderson at
(404) 562-1397.



                        Paul D. Barnes

cc: Linda Harrington
   Rhonda Currie
   Sarah Henderson




                                           C-5
                            SOCIAL SECURITY
                                                       Refer To: K. Killam 2-5727

MEMORANDUM

Date:      March 10, 2006

To:        Inspector General

From:      Regional Commissioner
           Atlanta

Subject: Administrative Costs Claimed by the North Carolina Disability
         Determination Services (NC DDS) – A 04-05-1540 - UPDATE

We responded to the above draft audit report on February 3, 2006. Our response to the
1st recommendation regarding the appropriateness of space costs indicated that we
would continue to seek an optimum resolution to the space issue. In the interim, we
have reviewed the space issues with the NC DDS and determined that the renewal of
their lease with current the lessor is appropriate.

Our updated response to the space cost recommendation is as follows:

10. Recommendation: Determine the appropriateness of the $1,845,432 in office
    space costs above the amount allowed by Social Security Administration
    (SSA) policy and seek reimbursement for any inappropriate charges.

      The OIG audit states that the NCDDS leased more space than allowed by SSA
      Policy. SSA’s Program Operations Manual System (POMS) reference sited by OIG
      provides guidelines as to the amount of space to be allocated to each authorized
      employee. The NCDDS’s request to expend funds to relocate and to secure
      approximately 142,625 square feet of office space was approved in August 1998.
      The State subsequently advertised for 142,624 square feet of space. In August
      1999, the NCDDS began moving into their new location, a privately owned building
      with 150,000 square feet. The approval for 142,625 square feet of space was based
      in large part upon anticipated increases in staffing and workload that has not
      materialized due to budgetary constraints. A cost/benefit analysis of relocating the
      NCDDS to a different office building that is more in line with space allocation
      guidelines has been done. For example, when we recently moved the Tennessee
      DDS, which is slightly smaller than the North Carolina DDS, the moving cost was
      approximately $3.4 million. In addition to moving costs, we are also concerned
      about the significant disruption of service and the loss of productivity during the
      period of the move.


                                            C-6
   The results of our analysis show that the cost of relocating the NCDDS to a different
   facility of reduced size will result in increased expenditures far in excess of what is
   currently being paid. The NCDDS is located in Raleigh, NC which is part of an area
   known as the “Research Triangle”. The three cities that make up the Research
   Triangle are Durham, Chapel Hill and Raleigh. This area is a very desirable location
   on the east coast and real estate prices correspondingly reflect this. The NCDDS is
   currently paying $11.36 per square foot of space. However, the Social Security
   Office (SSA) located in Raleigh is currently paying $23.06 per square foot. The
   Office of Hearings and Appeals Office in Raleigh is currently paying $21.81 per
   square foot and the SSA Office in Durham is currently paying $25.66 per square foot
   of space. Based on these prices, a new lease would undoubtedly almost double the
   cost per square foot. Therefore, not only would relocating to new space create a
   disruption to effective case management and customer service, but also would not
   be cost effective. Accordingly, the Regional Office has granted approval to the
   NCDDS to sign a 3-year renewal of their lease (to begin July 2006) for the same
   150,000 square feet of space that the NCDDS currently occupies. The cost of the
   new lease renewal will be as follows:

      a. The annual cost for the first year will be $1,826,258.42, or $12.17 per square
         foot.
      b. The annual cost for the second year will be $1,871,914.88, or $12.48 per
         square foot
      c. The annual cost for the third year will be $1,918,712.75 or 12.79 per square
         foot

   The NCDDS cannot renegotiate the lease for fewer square feet (142,625) because
   the lessor would treat this action as a new lease and then the significant price
   increases would apply.

   As stated in our earlier response, we determined that the NCDDS acted in good
   faith at the time the original contract was let and we will not seek
   reimbursement for any charges related to this finding.

Please contact me if I can be of further assistance. Staff questions should be referred
to Karen Killam at (404) 562-5727 or Sarah Henderson at
(404) 562-1397.



                                                   Paul D. Barnes

cc: Linda Harrington
   Rhonda Currie
   Sarah Henderson




                                           C-7
                                   Appendix D

North Carolina Department of Health and
Human Services’ Comments
D-1
D-2
D-3
D-4
D-5
D-6
D-7
D-8
D-9
D-10
D-11
D-12
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   David McGhee, Auditor

   Shane Henley, Auditor

   Charles Lober, Information Technology Specialist

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-04-05-15040.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
